           NATIONAL RAILROAD PASSENGER CORPORATION




          NATIONAL RAILROAD PASSENGER CORPORATION




BUDGET ESTIMATE:
FISCAL YEAR 2013
SUBMITTED FOR THE USE OF THE COMMITTEES ON APPROPRIATIONS,
US SENATE AND US HOUSE OF REPRESENTATIVES




                                                       February 10, 2012
                                                                                                                                  1


                                         TABLE OF CONTENTS


INSPECTOR GENERAL’S OVERVIEW .................................................................... 2

MISSION, VISION, AND
GUIDING PRINCIPLES AND VALUES ................................................................... 5

ORGANIZATION ........................................................................................................ 6

APPROPRIATIONS LANGUAGE ............................................................................. 7

SUMMARY OF FISCAL YEAR 2013
BUDGET REQUEST ..................................................................................................... 8

KEY FOCUS AREAS FOR FISCAL YEAR 2013
OIG WORK .................................................................................................................... 9

BUDGET TABLES .................................................................................................. 14-19
                                                                                           2


           NATIONAL RAILROAD PASSENGER CORPORATION
                 OFFICE OF INSPECTOR GENERAL

         FISCAL YEAR (FY) 2013 BUDGET REQUEST

Inspector General’s Overview

The Amtrak Office of Inspector General (OIG) is committed to carrying out its mission
under the Inspector General Act of 1978 (as amended) as a high-performing OIG—
delivering timely, high quality, and value-added work to help improve the economy,
efficiency, and effectiveness of Amtrak programs and operations. In so doing, we
exercise independent oversight of Amtrak—conducting audits, inspections and
evaluations, and investigative work—that provides Amtrak, its customers, the public,
and the Congress with unbiased assessments of Amtrak programs and operations.

The OIG’s FY 2013 budget request is $22 million consistent with the President’s budget
request. Funding at this level will allow us to identify new opportunities for Amtrak to
save money and improve in key focus areas; reduce fraud, waste, and abuse; and
conduct follow-up work to help Amtrak realize savings opportunities from our past
recommendations.

We are committed to the highest standards of excellence in achieving our mission and
to being good stewards of our resources. The steps we have taken to increase our skills,
capabilities, and capacity, as well as our attention to key focus areas that can have the
largest positive impact on Amtrak’s operations, have led and will continue to lead to
significant improvements in Amtrak’s economy, efficiency, and effectiveness.

Our audit, and inspection and evaluation work has centered on six key focus areas:
Amtrak governance, acquisition and procurement, information technology, train
operations and business management, human capital management, and Recovery Act
activities. In FY 2010 we identified $21 million in saving opportunities and issued six
reports. In FY 2011 we issued 16 reports and identified over $361 million in questioned
and unsupported costs and funds to be put to better use. This combined savings of $382
million equates to a return of $9.43 for each dollar invested in OIG operations for fiscal
years 2010 and 2011.
                                                                                       3


Highlights of our efforts this past year include:

   Two audit reports reviewing American Recovery and Reinvestment Act (ARRA)
   funding for Amtrak identified $168.4 million that could be put to better use on
   security ($41.5 million) and infrastructure projects ($126.9 million).
   Our evaluation of Amtrak’s FY 2010 Fleet Strategy, which estimates expenditures of
   $8.9 billion over the next 10 years, identified seven areas where Amtrak could
   improve the strategy and potentially reduce some costs, including: (1) conducting
   additional and more detailed analysis to determine future equipment requirements
   and equipment optimal life, and (2) using a business-plan approach to enhance and
   replace the Acela fleet.
   Two evaluation reports in the human capital area determined that little progress has
   been made by Amtrak in implementing our recommendations to (1) help ensure that
   Amtrak employees, passengers, and the public are protected from accidents due to
   alcohol and drug use, and (2) update human capital management, training, and
   employee development so that Amtrak operations are not hindered by ineffective
   processes. Based on our follow-up work, Amtrak management has committed to
   reinvigorating efforts to address our recommendations in these important areas.
   An audit identified $519,000 in overpayments made to a freight railroad based on
   inaccurate invoices and weak internal controls for reviewing invoices. We
   recommended that Amtrak expedite its plan for addressing long-standing
   weaknesses and increase its invoice review capabilities.
   An audit assessing Amtrak’s performance in meeting the Americans with
   Disabilities Act (ADA) requirements found that the company has been working to
   make stations compliant, but has faced serious challenges. These include fragmented
   program management, lack of accountability, weaknesses in program cost estimates,
   and gaps in its compliance plans.

Our Investigative staff worked collaboratively and proactively with Amtrak
management to begin focusing attention on detecting and preventing potential fraud in
areas of substantial interest and importance to the company. In FY 2011 the Office of
Investigations secured one indictment, two convictions, and $156,000 in cost savings
and recoveries. During FY 2011, Investigations opened 40 cases, closed 292 cases, and
processed 312 hotline complaints.

In addition to delivering value-added work, we continue to make progress in ensuring
that we operate as a mainstream OIG and working toward our goal of becoming a
model OIG.
                                                                                         4



In this regard, during FY 2011 we completed a number of important actions to enhance
our operations and have others underway during FY 2012, addressing, among other
things, recommendations to improve OIG policies and processes from the 2010 National
Academy of Public Administration (NAPA) organizational assessment. In FY 2011, we

   made significant progress in restructuring and retooling the Office of Investigations.
   We ensured that all criminal investigators met the qualifications, training, and
   competency requirements of the Council of Inspectors General for Integrity and
   Efficiency (CIGIE). The Office of Investigations also continues to revise policy
   directives to ensure compliance with CIGIE standards. In addition to hiring highly
   qualified experience Investigative staff, Investigations has streamlined its office
   structure.

   completed an outside review of the Administrative Services unit (now Mission
   Support) and acted to implement the specific recommendations to restructure the
   activity, including hiring an experienced executive to lead this office;

   completed an organizational assessment and restructuring of the Office of Audits;

   created an Office of Quality Assurance and Internal Affairs;

   established an Office of Congressional and Public Affairs; and

   completed actions on the initial NAPA recommendations and established teams to
   address the remaining recommendations. A significant accomplishment was
   bringing our audit component more in line with Government Accountability Office
   standards by upgrading our TeamMate working paper software to a more current
   and capable edition, and providing all audit staff with training on the use of this
   new tool.

In addition, as required by the FY 2010 Consolidated Appropriations Act (P.L. 111-117),
we continued to implement recommendations to establish an effective working
relationship with Amtrak in the spirit of the Inspector General Act of 1978, as amended.
A relationship policy established in 2010 between Amtrak management and the OIG
was evaluated by the Farm Credit Administration Inspector General, who concluded
that the policy was consistent with the Inspector General Act of 1978, as amended.

The Appropriations Act also required a second evaluation of the policy 1 year after its
implementation. This evaluation, undertaken by the Inspector General of the U.S. Postal
                                                                                          5


Service, reported in October 2011 that Amtrak and the OIG “have made operational
OIG independence a high priority by undertaking significant organizational changes . . .
and have implemented 11 out of 15 initiatives to remediate identified independence
issues.”

Finally, the Performance Measurements Team, formed to guide implementation of the
NAPA recommendations on developing Amtrak OIG measures, has completed draft
metrics for each of the OIG’s Strategic Goal. These measures will be finalized in FY
2012.



Mission

To provide independent, objective oversight of Amtrak’s programs and operations
through audits, inspections, evaluations, and investigations focused on recommending
improvements to Amtrak’s economy, efficiency, and effectiveness; preventing and
detecting fraud, waste, and abuse; and providing Congress and Amtrak’s Board of
Directors with timely information about problems and deficiencies relating to Amtrak’s
programs and operations.


Vision

The Amtrak OIG will operate as a model OIG, generating objective and sophisticated
products that add value. Utilizing state-of-the-art infrastructure and support systems,
and following efficient, disciplined processes that meet the standards of the
accountability community, our diverse and talented team will work effectively and
transparently with, but independently from, Amtrak management.


Guiding Principles and Values

Amtrak’s Office of Inspector General’s principles and values are important because they
form the building blocks used to accomplish our mission and conduct day-to-day
operations:

   High Quality, Relevance, and Timeliness—Provide valuable and timely service.
   Work products are high quality, relevant, timely, add value, and are responsive to
   the needs of Amtrak and its stakeholders.

   Innovation—Be innovative, question existing procedures, and suggest
                                                                                       6


   improvements. New ideas and creativity are fundamental to continued growth,
   development, and problem solving.

   Respecting and Developing People—Create an environment that supports
   gathering, sharing, and retaining knowledge; fosters treating everyone fairly and
   with mutual respect through words and actions; ensures professional growth; and
   values the diverse backgrounds, skills, and perspectives of employees.

   Professionalism—Be committed to our professional standards and foster
   relationships with stakeholders that rely on communication and cooperation.
   Relationships with program managers are based on a shared commitment to
   improving program operations and effectiveness.

   Independence and Objectivity—Be committed to carrying out our mission with
   objectivity and independence, both in appearance and fact.

   Customer Service—Strive to be aware of the needs of stakeholders and work with
   Amtrak’s chairman, the Board of Directors, and the Congress to improve program
   management.



Organization

The OIG consists of six groups: Audits; Inspections and Evaluations; Investigations;
General Counsel; Mission Support; and Congressional and Public Affairs. OIG is based
in Washington, D.C., with field offices in Boston, Chicago, Los Angeles, New York, and
Philadelphia.

The Audits group conducts performance and financially-related audits across the
spectrum of Amtrak’s support and operational activities. It produces reports on those
activities that are aimed at improving Amtrak’s economy, efficiency, and effectiveness,
while seeking to detect and prevent fraud, waste, and abuse. The group conducts its
work in accordance with generally accepted government auditing standards. During FY
2011, the Audit group produced 11 audit reports and one statement for testimony
before Congress, identifying over $361 million in questioned or unsupported costs or
funds to be put to better use, as well as making recommendations to improve the
economy and efficiency of Amtrak’s operations.

Inspections and Evaluations (I&E), a relatively small group with specialized skills,
conducts inspections and evaluations of Amtrak programs and operations to identify
                                                                                             7


opportunities to improve the cost efficiency and effectiveness and overall quality of
service delivery throughout Amtrak. During FY 2011, the I&E group produced three
reports that contained recommendations to improve Amtrak’s human capital and fleet
management activities.

The Office of Investigations (OI) focuses on deterring and detecting fraud, waste, and
abuse in Amtrak’s programs and operations. The results of investigations are referred to
the Department of Justice for criminal prosecution or civil litigation, or to Amtrak for
administrative action. The office develops recommendations to reduce Amtrak’s
vulnerability to criminal activity. To facilitate planning and managing investigative
work, OI field offices are aligned with Amtrak’s field operations. This allows OI to
focus its efforts where there is the greatest potential for significant impact and potential
criminal or civil action by the Department of Justice. This alignment also enhances OI
responsiveness to the needs of Amtrak. During FY 2011, OI cases resulted in one
indictment, two convictions, and approximately $156,000 in cost savings and recoveries.

The General Counsel provides legal assistance and advice to OIG senior management
and legal support for audits, evaluations, special reviews, and investigations. Counsel
coordinates with outside attorneys including local and federal agencies and law
enforcement authorities, and appears in court on behalf of OIG and its employees.

The Office of Mission Support provides independent administrative, budget and
finance, communications, facilities management, human capital management,
information technology, and procurement support to the OIG.

The Office of Congressional and Public Affairs serves as the OIG liaison and conducts
OIG outreach with the U.S. Congress, other governmental entities, and the public.



Appropriations Language

                 NATIONAL RAILROAD PASSENGER CORPORATION
                            OFFICE OF INSPECTOR GENERAL
                            SALARIES AND EXPENSES

       For necessary expenses of the Office of Inspector General for the National
       Railroad Passenger Corporation to carry out the provisions of the Inspector
       General Act of 1978, as amended, $22,000,000: Provided, That the Inspector
       General shall have all necessary authority, in carrying out the duties specified in
                                                                                             8


       the Inspector General Act, as amended (5 U.S.C. App. 3), to investigate
       allegations of fraud, against or affecting Amtrak, including false statements to
       Amtrak (with coverage under 18 U.S.C. 1001), by any person or entity: Provided
       further, That the Inspector General may enter into contracts and other
       arrangements for audits, studies, analyses, and other services with public agencies
       and with private persons, subject to the applicable laws and regulations that
       govern the obtaining of such services within the National Railroad Passenger
       Corporation: Provided further, That the Inspector General may select, appoint,
       and employ such officers and employees as may be necessary for carrying out the
       functions, powers, and duties of the Office of Inspector General, subject to the
       applicable laws and regulations that govern such selections, appointments, and
       employment within Amtrak: Provided further, That concurrent with the
       President's budget request for fiscal year 2014, the Inspector General shall submit
       to the House and Senate Committees on Appropriations a budget request for fiscal
       year 2014 in similar format and substance to those submitted by executive
       agencies of the Federal Government.



Summary of Fiscal Year 2013 Budget Request


                              FY 2011        FY 2012     FY 2013
President's
Request ($
millions)                          22.0           22.0       22.0
Appropriation
($ millions)                       19.3           20.5       TBD
Prior Year Grant
Fundinga ($
millions)                              -           2.7           -
a
 Prior year grant funds that expire September 30, 2012



For FY 2013, the Amtrak Office of Inspector General requests $22 million, consistent
with the President’s budget request. This level of funding will support the work of a
total staff of 99 persons, comprising auditors, investigators, evaluators, specialists, and
support staff located in our Washington headquarters and five field offices. This budget
includes $198,000 for training requirements for the Inspector General’s office for FY
2013, and $19,200 to support the Council of the Inspectors General on Integrity and
Efficiency (CIGIE).
                                                                                             9


In accordance with Public Law 110-409, the Inspector General Reform Act of 2008, the
Inspector General certifies that the $198,000 for staff training satisfies all known training
requirements for FY 2013.

The OIG's FY 2013 budget request is broken down as follows:

   $19.2 million is dedicated to personnel and related costs for a staff of 99.

   $2.0 million is dedicated to operational and equipment expenses, including funding
   for office space, special equipment for criminal investigators, staff training, and
   information technology equipment and support services.

   $500,000 is dedicated to consultants and contracted services.

   $355,000 is dedicated to financial, accounting, and reporting services provided by
   the National Business Center of the U.S. Department of the Interior. The FY 2010
   Consolidated Appropriations Act established a direct appropriation for the OIG, which
   necessitated additional annual expenditures for financial, accounting, and reporting
   services, and hiring new staff in order to implement this provision.



Key Focus Areas for FY 2013 OIG Work

During FY 2013 we will focus our audit, inspection and evaluation, and investigative
efforts in the areas discussed below, subject to available resources. Our overall goal will
be to identify ways to improve the economy, efficiency, and effectiveness of Amtrak’s
programs and operations, while detecting and preventing fraud, waste, and abuse. Our
focus will build on our FY 2012 Audit, Inspection and Evaluation Plan for addressing
the issues discussed below.


Governance

Over the past 10 years, the subject of corporate governance and risk management has
received additional attention. Corporate governance is defined as a system of internal
control encompassing policies, processes, and people, which serves the needs of
shareholders and other stakeholders, by directing and controlling management
activities with good business savvy, objectivity, accountability, and integrity. Effective
risk management processes are essential in helping to avoid events that could prove to
be catastrophic to an organization’s financial and operational health.
                                                                                          10



During FY 2013 we will focus on assessing Amtrak’s progress in implementing our
recommendation to establish a risk management framework for the company. We will
identify processes that have been established by Amtrak management and the Board of
Directors to identify and mitigate risks. We will also review the effectiveness and
efficiency with which these processes are being implemented.


Acquisition and Procurement

Amtrak’s planned and reported expenditures in the areas of acquisition and
procurement represent a significant portion of the company’s budget each year.
Amtrak’s FY 2011 expenditures for fuel, power, and utilities totaled over $337 million.
Amtrak has ongoing and planned infrastructure and fleet investments that total in the
billions of dollars. OIG reviews in these areas provide opportunities to improve
resource utilization and reduce Amtrak’s reliance on federal subsidies.

In FY 2013, our Audits group plans to conduct selected performance audits of Amtrak’s
acquisition and procurement policies, processes, and practices, to identify systemic risks
and make recommendations for improvement. Our efforts will include pre- and post-
award reviews of large contracts, with a goal of identifying cost savings and
determining whether costs are being properly controlled, desired outcomes are being
achieved, and appropriate oversight is occurring. Other potential audits include
reviews of Amtrak’s fuel purchase program and its cost-effectiveness, and use of
strategic sourcing practices.


Information Technology

Passenger railroad businesses are labor- and capital-intensive. These businesses
increasingly rely on modern information technology (IT) to improve labor and asset
productivity and deliver safe and reliable customer service. Many of Amtrak’s existing
information systems and IT infrastructure in the areas of reservations and ticketing,
supply chain, and operations are outdated, inefficient, and increasingly prone to failure.
The increasing risk of failure in business-critical systems must be addressed to ensure
resilience and continuity of operations. At the same time, addressing these issues will
be costly.

During FY 2013 our work will focus on assessing the economy, efficiency, and
effectiveness of Amtrak’s key IT programs, such as the Information Technology
Infrastructure Improvement Initiative, Centralized Electrification and Traffic Control
                                                                                         11


System, and Next Generation Reservation System. By leveraging data analytics
capabilities, we also plan to assess the control effectiveness of Amtrak’s business
processes such as Purchase to Payment, Materials Management, Payroll, and Health
Care benefits.


Train Operations and Business Management

Amtrak operates over 300 daily trains on over 21,000 miles of rails. It serves 528 stations
in 46 states, 3 Canadian provinces, and the District of Columbia. In 2011, Amtrak
transported more than 30 million intercity passengers. In addition to evaluating
Amtrak’s compliance with laws and federal regulations, we are continually looking for
opportunities for Amtrak to improve the effectiveness and efficiency of its train
operations and business management.

During FY 2013, as resources become available, we are considering audits or
evaluations of Amtrak’s high speed rail plans for the Northeast Corridor and Amtrak’s
customer-service initiatives.


Human Capital Management

Amtrak employs approximately 18,000 agreement-covered (union) employees and
approximately 3,000 non-agreement covered (management) employees, located
throughout the United States. Amtrak faces many of the same challenges and
opportunities as do most other companies of its size in efficiently and effectively
managing this large, diverse workforce. Being a service organization and the only
intercity passenger rail operator in the United States, the effective development and
management of its talented employees are critical to its success. Our work will focus on
identifying opportunities for Amtrak to improve the efficiency and effectiveness of its
human capital management policies and practices.

During FY 2013, we plan to focus on areas related to Amtrak’s management of overtime
and employee absenteeism. In addition, as resources become available, we are
considering audits or evaluations of Amtrak’s health care programs, looking to identify
areas susceptible to fraud, waste, or abuse, and reviewing whether controls are
adequate to limit the risks.
                                                                                          12

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (ARRA) authorized the Federal
Railroad Administration (FRA) to provide $1.3 billion to Amtrak through a grant
agreement. This agreement allocated about $850 million for capital projects for the
repair, rehabilitation, or upgrade of railroad assets or infrastructure, and about $450
million for capital security projects, including life safety improvements. The Act
provided $5 million in funding for our oversight through FY 2013. Our efforts are
aimed at providing Congress with information on Amtrak’s use of ARRA funds, to
include validating costs incurred and the associated benefit to Amtrak. In addition, our
work will review Amtrak’s management of projects with a focus on improving project
economy, efficiency, and effectiveness.

During FY 2013 we plan on continuing audits of selected major contracts awarded with
ARRA funds to ensure that costs incurred were reasonable and allowable under the
contract. Our goal will be to identify funds that can be put to better use.


Safety and Security

Since 2004, the need to protect rail infrastructure from terrorist attacks has been critical
because of the bombings of the Madrid and Mumbai rail systems. Since 2005, the
Department of Homeland Security Transit Security Grant Program has provided more
than $97 million in grant funding to Amtrak to protect critical infrastructure. Amtrak’s
Police Department has used these funds for planning and assessments, infrastructure
protection, training, and public awareness and exercises. While most of our work
involves safety and security issues, we intend to focus on Amtrak’s use of grant funds
to improve security and the efficiency and effectiveness of Amtrak’s specific safety and
security initiatives, policies and practices.

Potential topics for review during FY 2013 include the efficiency and effectiveness of
security improvement efforts and the impact of the safe-to-safer program.


Asset Management

Amtrak owns over 2,000 pieces of rail equipment, with a replacement value of over $12
billion. In addition, Amtrak owns over 1,300 facilities, 1,186 bridges, 17 tunnels, and
over 600 miles of right-of-way, along with the associated signals, catenary, and track,
valued at over $17 billion. Optimizing the utilization of these assets will help Amtrak
achieve its corporate goals and improve the overall financial health of the
                                                                                        13


company. Our work will focus on identifying opportunities for Amtrak to improve the
utilization and management of its physical assets.

During FY 2013, as resources become available, we plan to continue to examine
opportunities to improve the return from Amtrak’s infrastructure assets, including an
evaluation of the utilization and management of Amtrak’s maintenance and
construction equipment.


Office of Investigations

The Amtrak OIG’s Office of Investigations focuses its investigative resources to ensure
that Amtrak’s financial and physical assets, program integrity, and other areas of
importance to the company are protected. Investigative priorities include product
substitution and defective products used in rail operations and construction; other
contract and procurement fraud such as bid rigging, false claims, and cost accounting
fraud; bribery and kickbacks in the awarding of contracts; health care fraud; fraudulent
injury and disability claims; and other serious misconduct by Amtrak employees and
contractors. OI strives to detect and deter fraud by providing fraud-awareness training
throughout the company and through other proactive initiatives.
                                                                                   14


        FY2013 BUDGET REQUEST BY APPROPRIATION ACCOUNT
           NATIONAL RAILROAD PASSENGER CORPORATION
                  OFFICE OF INSPECTOR GENERAL
                          Appropriations
                              ($000)



                                         FY 2011             FY 2012     FY 2013
ACCOUNT NAME                            ACTUAL       APPROPRIATION     REQUEST

Salary & Expenses                         19,254              20,500     22,000

Prior Year Grant Funding *                     -               2,700         -


* Prior year grant funds that expire on September 30, 2012.
                                                                                                        15



                   ARRA RECOVERY ACT OVERSIGHT SPENDING
                 NATIONAL RAILROAD PASSENGER CORPORATION
                        OFFICE OF INSPECTOR GENERAL
                                    ($000)




                                               FY09 - FY11             FY 2012              FY 2013
ACCOUNT NAME                                     ACTUAL            PROJECTION           PROJECTION


ARRA Recovery Act Oversight Spending                 2,292                 1,142                1,566

* $5.0M in appropriation for the ARRA Recovery Act Oversight was granted for a period of five
years from FY2009 till FY2013.
                                                                                                 16

                                          OBJECT CLASSIFICATION
                                NATIONAL RAILROAD PASSENGER CORPORATION
                                      OFFICE OF INSPECTOR GENERAL
                                           SALARIES & EXPENSES
                                                  ($000)



       OMB ACCOUNT ID: 575-00-2996                                FY 2011           FY 2012     FY 2013
                                                                 ACTUAL     APPROPRIATION     REQUEST
       Personnel Compensation:
11.1   Full-time permanent                                          9,407            10,734     11,783
11.5   Other personnel compensation                                    0                 2            2
11.9     Total personnel compensation                               9,407            10,736     11,785
12.1   Personnel benefits                                           5,099             6,925      7,444
21.0   Travel and transportation of persons                          286               335         344
22.0   Transportation of things                                        4                 5            5
23.2   Rental payments to others                                     382               536         507
23.3   Comm., utilities and misc charges                             394               269         268
24.0   Printing and reproduction                                       8                 1            1
25.1   Advisory and assistance services                             1,763              500         500
25.2   Other services from non-Federal sources                       106               142         148
25.3   Other purchases of good and services from Gov. accounts       602               698         717
26.0   Supplies and materials                                        385               213         146
31.0   Equipment                                                     818               140         135
99.0     Subtotal, direct obligations                              19,254            20,500     22,000


99.9     Total obligations                                         19,254            20,500     22,000



       Note: Numbers may not add up due to rounding.
                                                                                                             17



                            SUMMARY ANALYSIS OF CHANGE FROM FY 2012 TO FY 2013
                               NATIONAL RAILROAD PASSENGER CORPORATION
                                     OFFICE OF INSPECTOR GENERAL
                                                 ($000)



                                                                                          CHANGE FROM FY
                                                                                      2012 APPROPRIATION
                                           ITEM                                        TO FY 2013 REQUEST     TOTAL

FY 2012 Base (Appropriations)
Salaries & Expenses - Appropriations, Ob. Lim., and Exempt Obligations                                        20,500


Adjustments to Base
Annual merit increase                                                                                352
Annual increase in purchase of goods and services from Gov. accounts                                  19

Subtotal, Adjustments to Base                                                                                      371


New or Expanded Programs
8 Additional FTE's - Salaries & Benefits                                                            1,216
Travel expenses for additional FTE's                                                                   9
Reduction in office rent due to renegotiation of lease with landlord at lower rates                   (29)
Training expenses for additional FTE's                                                                 6
Supplies and materials
Completion of building renovations at field locations in FY12                                         (74)
Additional office supplies expenses                                                                    7


Miscellaneous expense reductions                                                                       (7)

Subtotal, New or Expanded Programs Increases/Decreases                                                            1,129


Total FY 2013 Request                                                                                         22,000



Note: Numbers may not add up due to rounding.
                                                                                                                     18

                                                     PROGRAM AND FINANCING
                                            NATIONAL RAILROAD PASSENGER CORPORATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                              ($000)

                                                                            FY 2011            FY 2012      FY 2013
                             OMB ACCOUNT ID: 575-00-2996                   ACTUAL      APPROPRIATION      REQUEST
      Obligations by program activity:
 0.01 General Administration                                                 19,254             20,500      22,000
 0.91 Direct program activities, subtotal                                    19,254             20,500      22,000
 9.00 Total new obligations                                                  19,254             20,500      22,000


      Budgetary Resources:
         Unobligated Balance:
10.00 Unobligated Balance brought forward, Oct 1                                38                112          112
10.21 Recoveries of prior year unpaid obligations                               55                  -            -
10.29 Unobligated balance withdrawn                                              -                  -            -
10.50 Unobligated balance (total)                                               93                112          112


      Budget Authority:
      Appropriations, discretionary:
11.00 Appropriation                                                          19,350             20,500      22,000
11.21 Appropriations, Transferred from Other Accounts                            -                  -            -
11.30 Appropriations permanently reduced                                        (39)                -            -
11.60 Appropriations, discretionary: (Total)                                 19,311             20,500      22,000


19.00 Budget Authority (total)                                               19,311             20,500      22,000
19.30 Total Budgetary Resources Available                                    19,311             20,500      22,000


      Status of budgetary resources
20.04 Direct obligations incurred (total)                                    19,293             20,500      22,000
22.01 Unobligated Bal: Apportioned: Avail in the current period                 57
24.03 Unobligated Bal: Apportioned: Unapportioned: Other                        55                112          112
25.00 Total budget resources                                                 19,405             20,612      22,112


      Change in obligated balance:
30.00 Unpaid obligations, brought forward, Oct 1 (gross)                      1,395              7,235       1,000
30.10 Uncollected payments, Fed sources, brought forward, Oct 1
30.20 Obligated balance, start of year (net)                                  1,395              7,235       1,000


30.30 Obligations incurred, unexpired accounts                               19,254             20,500      22,000
30.31 Obligations incurred, expired accounts                                    38                  -            -
30.40 Outlays (gross)                                                       (13,397)           (26,735)     (22,000)
30.80 Recoveries of prior year unpaid obligations, unexpired
30.81 Recoveries of prior year unpaid obligations, expired                      (55)
30.90 Unpaid obligations, end of year (gross)                                 7,235              1,000       1,000
30.91 Uncollected payments, Fed sources, end of year
31.00 Obligated balance, end of year (net)                                    7,235              1,000       1,000


      Budget Authority and outlays, net:
40.00 Budget Authority, gross                                                19,311             20,500      22,000


      Outlays, gross:
40.10 Outlays from new discretionary authority                               11,964             19,500      21,000
40.11 Outlays from discretionary balances                                     1,433              7,235       1,000
40.20 Outlays, gross (total)                                                 13,397             26,735      22,000


40.70 Discretionary: Budget authority, net                                   19,311             20,500      22,000
40.80 Discretionary: Outlays, net                                            13,397             26,735      22,000

41.80 Budget authority, net (total)                                          19,311             20,500      22,000
41.90 Outlays, net (total)                                                   13,397             26,735      22,000


      Note: Numbers may not add up due to rounding.
                                                        19




      NATIONAL RAILROAD PASSENGER CORPORATION
            OFFICE OF INSPECTOR GENERAL
           PERSONNEL RESOURCE - SUMMARY
               FULL-TIME EQUIVALENTS




                    FY 2011       FY 2012     FY 2013
ACCOUNT NAME       ACTUAL APPROPRIATION     REQUEST

OIG                     76             91         99
Recovery Act             4              5          5
TOTAL FTE               80             96         104
